Department of Homeland Security
   Ofﬁce of Inspector General

            Evaluation of DHS’ Information Security 

                 Program for Fiscal Year 2010 





OIG-11-01                                         October 2010
                                                                Office ofInspector General

                                                                U.S. Department of Homeland Security
                                                                Washington, DC 20528



                                                                Homeland
                                                                Security
                                 Gel 041010


                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (GIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of controls over the information
security program and practices at DHS. It is based on interviews with selected program
officials at the department and components, direct observations, a review of applicable
documents, and system testing.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                  F1!!/
                                  Assistant Inspector General, IT Audits
Table of Contents/Abbreviations 


Executive Summary ......................................................................................................................1 


Background ...................................................................................................................................2 


Results of Independent Evaluation ...............................................................................................3 


Recommendations.......................................................................................................................20 


Management Comments and OIG Analysis ...............................................................................21 


Appendices
     Appendix A:                 Purpose, Scope, and Methodology..........................................................24 

     Appendix B:                 Management Response to Draft Report..................................................26 

     Appendix C:                 System Inventory ....................................................................................29 

     Appendix D:                 Status of Certification and Accreditation Program.................................33 

     Appendix E:                 Status of Configuration Management .....................................................35 

     Appendix F:                 Status of Incident Response and Reporting Program .............................37 

     Appendix G:                 Status of Security Training Program.......................................................38 

     Appendix H:                 Status of Plans of Actions and Milestones (POA&M) Program.............40 

     Appendix I:                 Status of Remote Access Program..........................................................42 

     Appendix J:                 Status of Account and Identity Management Program ...........................44 

     Appendix K:                 Status of Continuous Monitoring Program .............................................46 

     Appendix L:                 Status of Contingency Planning Program ...............................................47 

     Appendix M:                 Status of Agency Program to Oversee Contractor Systems....................49 

     Appendix N:                 Major Contributors to this Report...........................................................51 

     Appendix O:                 Report Distribution .................................................................................52 


Abbreviations
     ATO                         Authority to Operate    

     C&A                         Certification and Accreditation   

     CBP                         Customs and Border Protection      

     CIO                         Chief Information Officer 

     CIS                         Citizenship and Immigration Services      

     CISO                        Chief Information Security Officer    

     CPIC                        Capital Planning and Investment Control     

     DHS                         Department of Homeland Security      

     FDCC                        Federal Desktop Core Configuration      

     FEMA                        Federal Emergency Management Agency          

     FIPS                        Federal Information Processing Standards      

     FISMA                       Federal Information Security Management Act                                 

Table of Contents/Abbreviations 

  FLETC     Federal Law Enforcement Training Center
  FY        Fiscal Year
  HSPD-12   Homeland Security Presidential Directive 12
  ICE       Immigration and Customs Enforcement
  I&A       Office of Intelligence and Analysis
  ISSO      Information Systems Security Officer
  ISO       Information Security Office
  IT        Information Technology
  MGMT      Management Directorate
  NIST      National Institute of Standards and Technology
  NPPD      National Protection and Programs Directorate
  OIG       Office of Inspector General
  OMB       Office of Management and Budget
  OPS       Office of Operations Coordination and Planning
  PIA       Privacy Impact Assessment
  PIV       Personal Identification Verification
  POA&M     Plans of Action and Milestones
  PTA       Privacy Threshold Analysis
  RAIDS     Radar Air Intrusion Detection System
  S&T       Science and Technology
  SDLC      System Development Life Cycle
  SOC       Security Operations Center
  SP        Special Publication
  TSA       Transportation Security Administration
  US-CERT   United States Computer Emergency Readiness Team
  USCG      United States Coast Guard
  USSS      United States Secret Service
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                We conducted an independent evaluation of the Department of
                Homeland Security (DHS) information security program and practices
                to comply with the requirements of the Federal Information Security
                Management Act (FISMA). In evaluating DHS’ progress in
                implementing its agency-wide information security program, we
                specifically assessed the department’s Plans of Action and Milestones
                (POA&M), certification and accreditation (C&A) processes, and
                privacy program. Fieldwork was performed at both the program and
                component levels.

                DHS continues to improve and strengthen its security program. During
                the past year, DHS developed and implemented the fiscal year (FY)
                2010 information security performance plan to focus on areas that the
                department would like to improve upon throughout the year.
                Specifically, DHS identified in the performance plan several key
                elements that are indicative of a strong security program, such as
                POA&M weakness remediation, quality of C&A, annual testing and
                validation, and security program oversight. While these efforts have
                resulted in some improvements, components are still not executing all
                of the department’s policies, procedures, and practices. For example,
                components have not maintained their information security programs at
                the department’s targeted performance level.

                In addition, our review identified the following more significant
                exceptions to a strong and effective information security program: (1)
                systems are being accredited though key information is missing or
                outdated; (2) POA&Ms are not being created for all known information
                security weaknesses or mitigated in a timely manner; and (3) baseline
                security configurations are not being implemented for all systems.
                Additional information security program areas that need improvement
                include configuration management, incident detection and analysis,
                specialized training, remote access, account and identity management,
                continuous monitoring, and contingency planning.




                Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                              Page 1
 

                We are making seven recommendations to the Chief Information
                Security Officer (CISO). The CISO concurred with all of our
                recommendations and has already begun to take actions to implement
                them. The department’s response is summarized and evaluated in the
                body of this report and included, in its entirety, as Appendix B.

Background
                Due to the increasing threat to information systems and the highly
                networked nature of the federal computing environment, the Congress,
                in conjunction with the Office of Management and Budget (OMB),
                requires an annual review and reporting of agencies’ compliance with
                FISMA requirements. FISMA focuses on the program management,
                implementation, and evaluation of the security of unclassified and
                national security systems.

                Recognizing the importance of information security to the economic
                and national security interests of the United States, the Congress
                enacted Title III of the E-Government Act of 2002 (Public Law
                107-347, Sections 301-305) to improve security within the federal
                government. Information security means protecting information and
                information systems from unauthorized access, use, disclosure,
                disruption, modification, or destruction. Title III of the E-Government
                Act, entitled FISMA, provides a comprehensive framework to ensure
                the effectiveness of security controls over information resources that
                support federal operations and assets.

                FISMA requires each federal agency to develop, document, and
                implement an agency-wide security program. The agency’s security
                program should protect the information and the information systems
                that support the operations and assets of the agency, including those
                provided or managed by another agency, contractor, or other source.
                As specified in FISMA, agency heads are charged with conducting an
                annual evaluation of information programs and systems under their
                purview, as well as an assessment of related security policies and
                procedures. Offices of Inspector General (OIG) must independently
                evaluate the effectiveness of an agency’s information security program
                and practices on an annual basis.

                OMB issued memorandum M-10-15, FY 2010 Reporting Instructions
                for the Federal Information Security Management Act and Agency
                Privacy Management, on April 21, 2010. The memorandum provides
                updated instructions for agency and OIG reporting under FISMA. In




             Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                           Page 2

                           accordance with OMB’s reporting instructions, this annual evaluation
                           summarizes the results of our review of DHS’ information security
                           program and practices.

                           The CISO leads the Information Security Office (ISO) and is
                           responsible for managing DHS’ information security program. To aid
                           in managing its security program, DHS developed a process for
                           reporting and capturing known security weaknesses in its POA&Ms.
                           DHS uses an enterprise management tool to collect and track data
                           related to all POA&M activities, including weaknesses identified
                           during self-assessments and the C&A process. DHS’ enterprise
                           management tool also collects data on other FISMA metrics, such as
                           the number of systems that have implemented DHS’ security baseline
                           configurations and the number of employees who have received
                           information technology (IT) security training.

                           In addition, DHS uses an enterprise-wide C&A tool to automate and
                           standardize portions of the C&A process. The tool allows DHS
                           components to quickly and efficiently develop their security
                           accreditation packages.

Results of Independent Evaluation
                           Based on the requirements outlined in FISMA and OMB’s annual
                           reporting instructions, our independent evaluation focused on 11 key
                           areas of DHS’ information security program (i.e., system inventory;
                           C&A process; POA&M; configuration management; incident response
                           and reporting; security training; remote access; account and identity
                           management; continuous monitoring; contingency planning; and
                           privacy) across 14 components.1

                           This report includes the results of a limited number of systems
                           evaluated during the year and our on-going financial statement review.
                           In addition, it includes the results of our Active Directory, United States
                           Computer Emergency Readiness Team (US-CERT), Cybersecurity,



1
    Customs and Border Protection (CBP), Citizenship and Immigration Services (CIS), Federal Emergency
    Management Agency (FEMA), Federal Law Enforcement Training Center (FLETC), Immigration and
    Customs Enforcement (ICE), Office of Intelligence and Analysis (I&A), National Protection and Programs
    Directorate (NPPD), Management Directorate (MGMT), OIG, Office of Operations Coordination and Planning
    (OPS), Science and Technology (S&T), Transportation Security Administration (TSA), United States Coast
    Guard (USCG), and United States Secret Service (USSS).




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                     Page 3

                            Homeland Security Presidential Directive 12 (HSPD-12), and
                            Personnel Systems Security audits.2

                            We separated the results of our evaluation into 11 key areas. For each
                            area, we identified the progress that DHS has made since our FY 2009
                            evaluation and the issues that need to be addressed to be more
                            successful in the respective information security program area.

                   OVERALL PROGRESS

                            •	   The CISO developed the “Fiscal Year 2010 DHS Information
                                 Security Performance Plan” to enhance DHS’ information security
                                 program and continue to make additional improvements on existing
                                 processes, such as continuous monitoring, POA&M, and C&A.

                            •	   The CISO has developed additional metrics [i.e., interconnection
                                 security agreements, Federal Information Processing Standards
                                 (FIPS) 199, E-Authentication, and Privacy Threshold Analysis
                                 (PTA)] for the FISMA scorecard to better evaluate the overall status
                                 of the department’s information security program.

                            •	   The CISO revised the department’s baseline IT security policies and
                                 procedures in DHS Sensitive Systems Policy Directive 4300A and its
                                 companion, DHS 4300A Sensitive Systems Handbook to reflect the
                                 changes made in DHS security policies and various National
                                 Institute of Standards and Technology (NIST) guidance.

                            •	   As of October 2009, the CISO has implemented an automated
                                 process to track and manage the security weaknesses that were
                                 identified in DHS’ national security systems.

                   OVERALL ISSUES TO BE ADDRESSED

                            Despite the actions taken by the CISO to improve the department’s
                            overall information security program, components are still not
                            executing all of the department’s policies, procedures, and practices.
                            For example, our review of FY 2010 DHS FISMA scorecards revealed
                            that components do not sustain their information security programs on a
2
    Stronger Security Controls Needed on Active Directory Systems (OIG-10-86, May 2010), U.S. Computer
    Emergency Readiness Team Makes Progress in Securing Cyberspace, but Challenges Remain (OIG-10-94,
    June 2010), DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems (OIG-10-111,
    August 2010), Resource and Security Issues Hinder DHS' Implementation of Homeland Security Presidential
    Directive 12 (OIG-10-40, January 2010), and Management Oversight and Component Participation Are
    Necessary to Complete DHS’ Human Resource Systems Consolidation Effort (OIG-10-99, July 2010).




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 4

                              year-round basis or perform continuous monitoring to maintain system
                              accreditations and POA&Ms.3 We identified similar problems in our
                              FY 2009 FISMA report.

                              •	   Three components (FEMA, ICE, and USSS) have maintained
                                   overall FISMA metric scores well below DHS’ minimum
                                   performance target (80%) between January and July 2010. As a
                                   result, it is evident that components have not maintained a robust
                                   and effective continuous monitoring program to ensure that the
                                   components’ C&A packages and POA&Ms are updated as
                                   appropriate and contain the necessary information for authorizing
                                   officials to make credible risk-based decisions. See Figure 1 below.
                                   We identified a similar problem in our FY 2009 report.




3
     In accordance with NIST Special Publication (SP) 800-37, continuous monitoring is the last phase of the risk
    management framework. OMB noted in its FY10 FISMA reporting instructions that continuous monitoring of
    security controls is required as part of the security authorization process to ensure controls remain effective over
    time (e.g., after the initial security authorization or reauthorization of an information system) in the face of
    changing threats, missions, environments of operation, and technologies. A robust and effective continuous
    monitoring program will ensure important procedures included in an agency’s security authorization package
    (e.g., as described in system security plans, security assessment reports, and POA&Ms) are updated as
    appropriate and contain the necessary information for authorizing officials to make credible risk-based
    decisions regarding the security state of the information system on an ongoing basis.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                          Page 5

      In addition, we identified the following deficiencies:

      •	   Artifacts supporting the component systems C&A were missing key
           information restricting the ability of accrediting officials to make a
           credible risk-based decision.

      •	   Components have not incorporated all known information security
           weaknesses into their POA&Ms.

      •	   Components have not implemented all of the required DHS baseline
           configuration and Federal Desktop Core Configuration (FDCC)
           settings on the information systems selected for review.

      •	   Appropriate training is needed for all individuals with significant
           security responsibilities.

System Inventory

      DHS continues to maintain a process to manage and update its systems
      inventory on an annual basis, including agency and contractor systems.
      In addition, DHS conducts site visits as part of the department’s annual
      inventory update process.

      PROGRESS

      •	   As of August 31, 2010, DHS has a total of 677 systems, which
           includes a mix of major applications, general support systems, and
           systems owned and operated by contractor support.

      •	   During the FY 2010 annual refresh process, DHS conducted more
           than 180 component site visits.

      ISSUES TO BE ADDRESSED

      •	   As of August 31, 2010, DHS had identified 101 new systems across
           10 components. Figure 2 identifies the new systems by component,
           including an overview of the system development life cycle (SDLC)
           status.




   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                 Page 6

                          Figure 2: FY 2010 New Systems
                                             SDLC Status
Component           Initiation   Development Implementation          Operational   Total
CBP                      0             6            0                     5         11
CIS                      1             7            1                     8         17
FEMA                     1             9            0                     8         18
FLETC                    0             1            0                     0          1
ICE                      1             5            0                    10         16
MGMT                     2            10            0                     1         13
NPPD                     1             1            0                     0         2
S&T                      0             7            0                     4         11
TSA                      0             5            0                     2         7
USCG                     0             4            0                     1         5
        Total            6            55            1                    39        101


    •	   Of the 101 new systems identified by the DHS Inventory Team, we
         noted that 39% of these new systems are reported to be in
         operational status. This could be an indicator that DHS’ prior
         systems inventory methodology was not effective in capturing
         components’ new systems into the DHS system inventory or that
         components were circumventing DHS’ Capital Planning and
         Investment Control (CPIC) process in procuring new systems.
         Specifically, DHS’ system inventory had been decreasing gradually
         between FY 2005 and FY 2009. However, DHS’ system inventory
         increased by 14% or from 595 to 677 systems between
         October 2009 and August 2010. OMB requires agencies to (1)
         integrate information security into each system and fund it over the
         lifecycle as it is developed, and (2) meet security requirements for
         the operations of legacy systems before spending funds on new
         systems. In addition, DHS requires that business cases and
         investment portfolios be developed for all capital assets, such as a
         new information system. DHS’ Investment Review Board, which
         includes the DHS Chief Information Officer (CIO) as a member,
         will review the business cases and investment portfolios for
         compliance with applicable criteria and ensure that the cost for
         security controls is integrated into the new system. Components
         circumventing DHS’ CPIC process to procure new systems may
         pose a security risk to the department if security controls are
         inadequate. Further, DHS cannot effectively manage its
         information security program without an accurate and complete
         system inventory. See Figures 3 and 4 for system inventory
         changes.




 Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                               Page 7

      •	   USSS had not submitted the required change request to reflect that a
           system, Radar Air Intrusion Detection System (RAIDS), had been
           decommissioned since 2005. Subsequently, USSS unintentionally
           uploaded the accreditation package of the replacement system,
           e-RAIDS, into DHS’ enterprise management tool and reported that
           RAIDS was accredited for three years. As a result, DHS’ system
           inventory did not reflect the actual operating status for two systems
           and USSS accrediting officials were not provided with the most
           updated information to make credible risk-based decisions
           regarding their systems.

      •	   DHS has not established a real-time capability to keep track of the
           hardware devices and software installed on its systems.

      See Appendix C for System Inventory and Appendix M for Status of
      Agency Program to Oversee Contractor Systems.

Certification and Accreditation Program

      DHS follows the C&A process outlined in NIST SP 800-37 and DHS
      Sensitive Systems Policy Directive 4300A to certify and accredit its
      systems. Components are required to use an enterprise-wide tool that
      incorporates NIST recommended security controls required for system
      C&A. The DHS C&A process requires documentation, such as system
      security plans, POA&Ms, risk assessments, system test and evaluation
      plans, security assessment reports, contingency plans, contingency plan
      test results, and NIST 800-53 self-assessments.




   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                 Page 8

   For some of the systems that have been accredited by the components,
   the artifacts that are required to certify and accredit a system were
   either missing or incomplete. In addition, some of the self-assessments
   were not being properly completed by the components.

   PROGRESS

   •	   DHS requires components to upload C&A artifacts into its
        enterprise management tool to monitor the progress in accrediting
        systems. The artifacts include: Authority to Operate (ATO) letter,
        system security plan, security assessment report, security test and
        evaluation, contingency plan, contingency plan test results,
        FIPS 199 determination, E-authentication determination,
        PTA/privacy impact assessment (PIA), and NIST SP 800-53
        self-assessment.

   •	   The overall quality of C&A documentation has improved in
        FY 2010, compared to FY 2009. For example, more system C&A
        packages contain the required artifacts, and there were fewer
        instances where security documentation was out of date.

        ISSUES TO BE ADDRESSED

   •	   We selected 25 systems from 9 components and offices to evaluate
        the quality of DHS’ C&A process. Our review revealed that the
        component CISOs have not performed adequate reviews to ensure
        that the artifacts contain the required information to meet all
        applicable DHS, OMB, and NIST guidelines. For some of the
        systems that have been accredited by the components, the artifacts
        that are required to certify and accredit a system were either
        missing, incomplete or outdated. Without this information, agency
        officials cannot make credible, risk-based decisions on whether to
        authorize the system to operate. Specifically:

            ¾	 	We identified four instances where the FIPS 199
                determination was outdated or not completed properly. The
                FIPS 199 determination, when applied properly during the
                risk assessment process, helps agency officials to select
                applicable controls for the information systems.
            ¾	 	Twenty-two instances were identified where system security
                plans were missing sections that included management
                plans, security controls, emergency changes, and incident




Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                              Page 9

                   handling procedures. We also identified three instances
                   where system security plans were out of date. The system
                   security plan should be current, provide an overview of the
                   information system, and describe the security controls
                   implemented or planned to protect the system.
               ¾	 	We identified 14 instances where contingency plans and
                   testing results were missing certain elements, including the
                   identification of alternate processing facilities, restoration
                   procedures, data sensitivity handling procedures at the
                   alternate site or off-site storage.
               ¾	 	For systems that require a PIA, we determined that two
                   systems did not have a PIA or supporting PIA
                   documentation. In addition, we identified four instances
                   where systems did not have completed and approved PTAs
                   or were not filled out properly.

      •	   As part of the C&A review, we also evaluated the quality of
           completed NIST SP 800-53 self-assessments. For example, we
           determined whether applicable controls were tested and whether
           components provided supporting documentation for all controls that
           were reported as “tested.” In addition, we evaluated whether
           POA&Ms were created for any required control that was not tested.

               ¾	 	In 14 systems, some required security controls from the
                   NIST SP 800-53 that were not tested and were not included
                   in POA&Ms.
               ¾	 	For 11 systems, there were very few of the DHS CIO
                   recommended supporting artifacts provided in support of the
                   testing conducted.
      See Appendix D for our assessment of DHS’ Certification and
      Accreditation Program.

Plans of Action and Milestones Program

      DHS requires components to create and maintain POA&Ms for all
      known IT security weaknesses. In addition, DHS performs automated
      reviews on POA&Ms for accuracy and completeness and the results are
      provided to components on a daily basis. In general, the quality of
      POA&Ms has improved from FY 2009 to FY 2010. Despite these
      improvements, components are not entering and tracking all IT security
      weaknesses in DHS’ enterprise management tool, nor are all of the data
      entered by the components accurate and updated in a timely manner.




   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                 Page 10
 

                        We identified a similar issue in our FY 2007, FY 2008, and FY 2009
                        FISMA reports.4

                        PROGRESS

                        •	 As of October 1, 2009, DHS has implemented an automated process
                           to track IT security weaknesses identified from its national security
                           systems.
                        •	 Components have created POA&Ms for all 158 (100%) notice of
                           findings and recommendations for the weaknesses identified during
                           the FY 2009 financial statement audit.5

                        ISSUES TO BE ADDRESSED

                        •	   Components are not correcting all deficiencies identified during
                             DHS’ POA&M quality reviews. Our review of DHS’ quality
                             reports identified repeated deficiencies, such as inaccurate
                             milestones, lack of resources to mitigate the weaknesses, and delays
                             in resolving the POA&Ms that are not corrected by the components.
                             We identified similar problems in our FY 2008 and FY 2009
                             FISMA reports.

                        •	   Components are not monitoring the status of their high-priority
                             POA&Ms or reviewing them for consistency and completeness.
                             DHS requires component CISOs to monitor the progress of the
                             POA&M implementation and remediation efforts. Specifically,
                             component CISOs are required to review and approve all priority 4
                             and priority 5 POA&Ms to ensure that the weaknesses are properly
                             prioritized, and that appropriate resources have been identified for
                             remediation. Priority 4 weaknesses are assigned to initial audit
                             findings and priority 5 weaknesses for repeat audit findings. As of
                             June 30, 2010, only 282 out of 388 (73%) priority 4 and 5
                             POA&Ms have been reviewed and approved by a component CISO.

                        •	   DHS components have not created POA&Ms for all known
                             information security weaknesses. Component CISOs are
                             responsible for ensuring that POA&M information is entered
                             accurately and that weaknesses are mitigated timely. For example,


4
  Evaluation of DHS’ Information Security Program for Fiscal Year 2007 (OIG-07-77, September 2007),
  Evaluation of DHS’ Information Security Program for Fiscal Year 2008 (OIG-08-94, September 2008) and
  Evaluation of DHS’ Information Security Program for Fiscal Year 2009 (OIG-09-109, September 2009).
5
  Information Technology Management Letter for the FY 2009 DHS Integrated Audit (OIG-10-110, May 2010).




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                   Page 11
 

                                 MGMT did not create POA&Ms for findings identified in OIG
                                 audit reports issued during FY 2010.6

                            •	   Based on our analysis of data from DHS’ enterprise management
                                 tool, as of June 30, 2010, component CISOs and information system
                                 security officers (ISSO) are not maintaining current information as
                                 to the progress of security weakness remediation and all POA&Ms
                                 are not being resolved in a timely manner.

                                    ¾	 	Component CISOs are not updating information concerning
                                        all weaknesses where the estimated completion date has
                                        been delayed. Of the 4,122 open POA&Ms with estimated
                                        completion dates, 163 (4%) were delayed by at least 3
                                        months (prior to April 1, 2010). Furthermore, 67 POA&Ms
                                        had an estimated completion date over 1 year old, dating as
                                        far back as March 30, 2008.
                                    ¾	 	Resources required for the remediation of 94 (2%) of the
                                        4,122 open POA&Ms were either not identified or listed the
                                        cost of remediation as less than $50. DHS requires a
                                        reasonable resources estimate of at least $50 be provided to
                                        mitigate the weakness identified.
                                    ¾	 	273 (7%) of 4,122 open POA&Ms are scheduled to take
                                        more than 2 years to mitigate the weaknesses.
                                    ¾	 	Twelve open weaknesses are defined as significant
                                        deficiencies. Four of these 12 significant deficiencies were
                                        created more than 12 months ago.

                            See Appendix H for the evaluation of DHS’ POA&M Program.




6
    Resource and Security Issues Hinder DHS' Implementation of Homeland Security Presidential Directive 12
     (OIG-10-40, January 2010), and Stronger Security Controls Needed on Active Directory Systems (OIG-10-86,
     May 2010).




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 12
 

                 Configuration Management

                         We selected 47 systems and performed manual reviews of selected
                         servers, routers, and databases to evaluate the compliance with DHS
                         baseline configuration requirements. Additionally, we evaluated
                         compliance with FDCC requirements at MGMT, OIG, OPS, and TSA.7
                         Results from both sets of testing revealed that the components have not
                         implemented all of the required DHS baseline configuration and FDCC
                         settings. We reported a similar issue in our FY 2009 report.

                         In addition, we performed in-depth testing on four gateway routers
                         providing access to DHS’ wide-area network, OneNet. Testing
                         included using automated tools and manual processes to determine
                         whether security vulnerabilities and divergence from DHS baseline
                         configuration requirements could be exploited to gain unauthorized
                         access to DHS’ network.

                         ISSUES TO BE ADDRESSED

                         •	   While MGMT, OIG, OPS, and TSA reported that FDCC settings
                              have been fully implemented, our testing revealed that not all
                              FDCC required settings have been implemented.

                         •	   Vulnerability assessments performed at components during our
                              Active Directory, US-CERT, and Cybersecurity review audits
                              identified security concerns with access control, identification and
                              authentication, and configuration management.8 In these instances,
                              components had not configured their systems based on DHS’
                              configuration guidelines.

                         •	   Results from our C&A and configuration reviews indicated that
                              components had not configured their systems based on DHS’
                              configuration guidelines. Components included CBP, CIS, FEMA,
                              ICE, Management, NPPD, S&T, TSA, USCG, and USSS.
                              Deficiencies identified included:

                                  ¾	 Insecure Windows authentication protocols are in use.


7
   A network-based vulnerability testing tool, Nessus, was used with an FDCC Windows XP Desktop audit policy
  to automatically scan desktop workstations and report any misconfigurations.
8
  Stronger Security Controls Needed on Active Directory Systems (OIG-10-86, May 2010), U.S. Computer
  Emergency Readiness Team Makes Progress in Securing Cyberspace, but Challenges Remain (OIG-10-94,
  June 2010), DHS Needs to Improve the Security Posture of Its Cybersecurity Program Systems (OIG-10-111,
  August 2010).




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                   Page 13

                                    ¾	 	Windows and Solaris default accounts and the Oracle public
                                        profile are in use and are often given excess access and
                                        permissions.
                                    ¾ The logging capability for Cisco routers and Linux servers is
                                        not configured to capture a sufficient level of detail.
                                    ¾ Secure Shell, a powerful administrative tool, is insecurely
                                        configured on Linux and Solaris systems.
                                    ¾	 	Simple Network Management Protocol, a network
                                        management tool, is in use despite being expressly
                                        prohibited by DHS.

                            •	   Gateway routers for OneNet were not configured according to DHS
                                 policy. The following deficiencies were identified:

                                    ¾	 	The logging capability is not enabled on routers to capture
                                         and send log data to a centralized server. Further, the denied
                                         access attempts are not being captured. Without the logging
                                         capability enabled, it may not be possible to reconstruct a
                                         security incident and hold individuals accountable for
                                         suspicious activities.
                                    ¾	 	 Network Time Protocol is not used by two routers to
                                         synchronize router clocks.9 Network Time Protocol helps
                                         ensure accurate date and time stamps within log records.
                                    ¾	 	 Telnet, an insecure administration tool, is running on one
                                         router. Since information is sent in clear text using telnet,
                                         login credentials and system data may be easily
                                         compromised and exploited.
                                    ¾	 	 Outbound and inbound Internet Control Message Protocol
                                         messages are not restricted based on message types.10
                                         Internet Control Message Protocol messages should be
                                         blocked as specified by DHS to protect against Internet
                                         Control Message Protocol-based network attacks.
                                    ¾	 	 Multiple unused router interfaces have not been disabled as
                                         required by DHS to limit access to the router and network.

                            See Appendix E for information regarding DHS’ Configuration
                            Management.




9
    Network Time Protocol is used for synchronizing the clocks of computer systems and network devices.
10
    Internet Control Message Protocol is used by networked computers to send informational messages for
    diagnostic and routing purposes.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 14

                 Incident Response and Reporting Program

                          DHS has established adequate incident detection, handling, and
                          analysis procedures. However, DHS has not fully implemented its
                          department-wide vulnerability assessment program to evaluate the
                          security posture at all components.

                          PROGRESS

                          •	   DHS continues to implement its vulnerability assessment program
                               as the DHS Security Operations Center (SOC) has the ability to
                               perform full credential scanning on workstations and servers at
                               CBP, CIS, FLETC, and TSA.11

                          ISSUES TO BE ADDRESSED

                          •	   DHS’ vulnerability assessment program has not been deployed
                               department-wide. The program includes a comprehensive
                               vulnerability alert, assessment, remediation, and reporting process
                               to effectively identify computer security vulnerabilities and track
                               mitigation efforts to resolution. The DHS SOC only has limited
                               access at FEMA, ICE, and MGMT, and cannot perform
                               vulnerability assessments on their workstations and servers.
                               Finally, the DHS SOC has no access at OIG, USCG, and USSS.

                          See Appendix F for information regarding DHS’ Incident Response and
                          Reporting Program.

                 Security Training Program

                          The CISO has established a process to validate components’ employee
                          security training and has an active role in developing the content for
                          DHS training requirements. However, specific training content for
                          employees with significant security responsibilities has not been
                          implemented.

                          PROGRESS

                          •	   DHS is currently developing four specialized training courses for
                               individuals with significant IT security responsibilities, including


11
  Full credential scanning involves unrestricted access to component networks and enables the use of software
tools (i.e., Nessus, WebInspect) to perform comprehensive vulnerability scans.




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                    Page 15

           ISSO, system administrators, system owners, and authorizing
           officials. The courses are expected to be implemented in FY 2011.

      ISSUES TO BE ADDRESSED

      •	   DHS has not yet provided appropriate, specialized security training
           courses to employees and contractors with significant IT security
           responsibilities. We reported a similar issue in our FY 2007,
           FY 2008, and FY 2009 FISMA reports.

      •	   DHS does not currently identify and track all employees with or
           without login privileges who require security awareness training.

      See Appendix G for information regarding DHS’ Security Training
      Program.

Remote Access Program

      According to DHS policy, components are responsible for managing all
      remote access and dial-in connections to their systems through the use
      of two-factor authentication and audit logging capabilities to protect
      sensitive information throughout transmission. However, ICE does not
      currently use remote access.

      PROGRESS

      •	   Seven components (CBP, CIS, FLETC, MGMT, NPPD, USCG,
           and USSS) have developed policies to ensure that effective controls
           have been implemented to protect remote connections (i.e.,
           multi-factor authentication firewalls) from external threats.
      •	   Encrypted virtual private network connections are used to allow
           users to securely access network resources remotely at CBP, CIS,
           FLETC, MGMT, NPPD, USCG, and USSS.

      ISSUES TO BE ADDRESSED

      •	   CIS has not enabled a remote access time-out function after 30
           minutes of inactivity as required by OMB.

      See Appendix I for DHS’ Remote Access Program.




   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                 Page 16

                 Account and Identity Management Program

                         DHS does not have a centralized capability to identify users and
                         devices connected to its systems. Specifically, components are
                         currently maintaining their respective account and identity management
                         programs. However, the department plans to implement HSPD-12
                         personal identification verification (PIV) credentials enterprise-wide,
                         which will be used to provide agency-wide system access management
                         by the end of FY 2011.

                         PROGRESS

                         •	   The CIO has created the Identity, Credential and Access
                              Management Program Management Office to coordinate the
                              implementation of a department-wide identity, credentialing, and
                              access management program.

                         ISSUES TO BE ADDRESSED

                         •	   OMB required agencies to issue and use PIV credentials for current
                              employees and contractors by October 27, 2008. DHS was given an
                              extension until December 2010 to issue PIV credentials to its
                              employees and contractors. However, DHS does not plan on
                              completing the issuance of HSPD-12 PIV cards to all DHS
                              employees and contractors until September 30, 2011.12

                         See Appendix J for DHS’ Account and Identity Management Program.

                 Continuous Monitoring Program

                         DHS has implemented a department-wide continuous monitoring
                         program. Specifically, components are required to perform key control
                         reviews, contingency testing, incident response reporting, and ongoing
                         annual security control testing on its information systems. However,
                         components have not satisfied all of the department’s continuous
                         monitoring requirements.




12
  Resource and Security Issues Hinder DHS' Implementation of Homeland Security Presidential Directive 12
(OIG-10-40, January 2010).




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                   Page 17

      PROGRESS

      •	   DHS has developed policies and procedures to implement its
           continuous monitoring functions and requirements.

      •	   As of July 2010, CISO has performed 89 critical control reviews on
           selected information systems to ensure that key controls have been
           implemented and to help components identify potential weaknesses
           or vulnerabilities.

      ISSUES TO BE ADDRESSED

      •	   DHS has not provided specific strategy documents, plans, or tools
           that should be followed for all continuous monitoring functions,
           such as vulnerability scanning, log monitoring, or notification of
           unauthorized devices.

      •	   As of July 31, 2010, CISO reported that nine components (FEMA,
           FLETC, I&A, ICE, NPPD, OIG, OPS, USCG, and USSS) have
           received failing scores on the department’s annual assessment
           requirements to evaluate the effectiveness of the required controls.

      •	   DHS and its components do not have a real-time and automated
           continuous monitoring capability to keep track of their
           hardware/network devices, external connections, and software
           installed on their systems.

      •	   Components have not provided the authorizing officials with
           up-to-date security status reports and documentation for all system
           C&A packages. For example, during our review of 25 system
           security plans, we identified 3 instances where documentation was
           out of date. Without the current information, authorizing officials
           cannot make a credible risk-based decision on whether to certify the
           system.

      See Appendix K for DHS’ Continuous Monitoring Program.

Contingency Planning Program

      DHS has established and is maintaining an entity-wide business
      continuity and contingency planning program. However, components
      have not complied with all of DHS’ contingency planning
      requirements.




   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                 Page 18

      PROGRESS

      •	   DHS has developed continuity and disaster recovery policies and
           plans that provide the authority and guidance necessary to reduce
           the impact of a disruptive event or disaster. For example, DHS has
           developed the Department of Homeland Security Headquarters
           Continuity of Operations Plan, dated April 22, 2008. The plan is
           currently undergoing its biennial update and revision.

      •	   DHS has developed training, testing, and exercise approaches for its
           business continuity and disaster recovery programs. For example,
           in May 2010 all components participated in the federal government
           continuity exercise to test activation continuity plans, systems and
           procedures, and mission-essential functions.

      ISSUES TO BE ADDRESSED

      •	   As part of the department’s overall contingency planning and
           disaster recovery efforts, DHS requires all IT systems to complete
           an IT contingency plan detailing how the system will recover in the
           event of an emergency or disaster. Based on our review of
           certification and accreditation packages for 25 systems, we
           determined that contingency plans and/or testing reports for 14
           systems are missing certain elements, including the identification of
           alternate processing facilities, restoration procedures, data
           sensitivity handling procedures at the alternate site or off-site
           storage.

      See Appendix L for DHS’ Contingency Planning Program.

Privacy

      The Privacy Office has updated its PIA guidance and implemented an
      escalation policy to help improve the PIA review and approval process.
      In addition, the Privacy Office has made progress on implementing all
      requirements specified in OMB M-07-16, Safeguarding Against and
      Responding to the Breach of Personally Identifiable Information,
      May 22, 2007. Finally, the Privacy Office has defined the
      consequences for all users, and these consequences will be incorporated
      into the new Culture of Privacy Training that is scheduled to be
      released in February 2011.




   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                 Page 19

     PROGRESS

     •	 The Privacy Office has established an escalation policy for any
        PIAs that have been in the review and approval process for an
        extended period of time.

     •	 The Privacy Office has issued updated PIA guidance since our last
        review.

     •	 DHS has implemented all of the requirements outlined in OMB
        M-07-16. Specifically, DHS has defined the consequences for users
        who do not comply with the policy.

Recommendations
     We recommend that the CISO:

     Recommendation #1: Revise and strengthen the processes to ensure
     that components cannot procure a new system without the department’s
     approval and all new systems will be captured in DHS’ system
     inventory.

     Recommendation #2: Improve the OIS’ review process to ensure that
     POA&Ms, including those for classified systems, are complete and
     current.

     Recommendation #3: Include all applicable controls in the security
     documentation when certifying and accrediting systems. Systems
     accredited with outdated documents or without all applicable controls
     should not be accepted.

     Recommendation #4: Improve the process to implement and maintain
     DHS baseline configuration requirements on all systems. The process
     should include testing and the use of automated tools and security
     templates.

     Recommendation #5: Establish appropriate training that is needed for
     all individuals with significant security responsibilities to perform their
     security functions.

     Recommendation #6: Evaluate and revise the department’s current
     FDCC implementation strategy to ensure the requirements outlined in
     OMB M-07-11 and M-07-18 are implemented expeditiously.




  Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                Page 20

     Recommendation #7: Develop a strategy to implement an automated
     and real-time continuous monitoring process for tracking the
     department’s inventory, including hardware devices, external
     connections, and software installed on its systems that complies with
     applicable OMB and NIST guidance. In addition, the continuous
     monitoring program should include performing periodic testing to
     evaluate the security posture at all components.

Management Comments and OIG Analysis
     Management Comments to Recommendation #1
     DHS concurred with recommendation 1. DHS continues to strengthen
     and revise processes to ensure that the procurement of new systems is
     approved by the department and captured into DHS’ system inventory.

     OIG Analysis
     We agree that the steps that DHS is taking, and plans to take, begin to
     satisfy this recommendation. This recommendation will remain open
     until DHS provides supporting documentation that all planned
     corrective actions are completed.

     Management Comments to Recommendation #2
     DHS concurred with recommendation 2. The ISO process has been
     improved to ensure that all POA&Ms, including those POA&Ms for
     classified systems, are complete and current. Updates to the Plan of
     Action and Milestones (POA&M) Process Guide, DHS 4300A
     Sensitive Systems Handbook, for FY 2011, will incorporate process
     changes based on lessons learned during FY 2010 POA&M monitoring,
     recently issued NIST 800-37, Revision 1, and the FY 2011
     Performance Plan once finalized.

     OIG Analysis
     We agree that the steps that DHS is taking, and plans to take, begin to
     satisfy this recommendation. This recommendation will remain open
     until DHS provides supporting documentation that all planned
     corrective actions are completed.

     Management Comments to Recommendation #3
     DHS concurred with recommendation 3. The C&A document
     templates are generated with the applicable controls by the DHS C&A
     tool at the time the C&A is initiated. Additionally, the required C&A
     documents are reviewed by the ISO Document Review Team to ensure




  Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                Page 21
 

   that all applicable controls are adequately addressed and documents
   which are outdated or lack all applicable controls are not accepted.

   OIG Analysis
   We agree that the steps that DHS is taking, and plans to take, begin to
   satisfy this recommendation. This recommendation will remain open
   until DHS provides supporting documentation that all planned
   corrective actions are complete.

   Management Comments to Recommendation #4
   DHS concurred with recommendation 4. The CIO has identified
   continuous monitoring as a High Priority Initiative (HPI) 11-14 in
   FY 2011. The automated compliance reporting of baseline
   configuration requirements will be included as part of the continuous
   monitoring HPI. A department-wide gap analysis is being conducted to
   evaluate the tools and capabilities currently in place within DHS to
   address these concerns.

   OIG Analysis
   We agree that the steps that DHS is taking, and plans to take, begin to
   satisfy this recommendation. This recommendation will remain open
   until DHS provides supporting documentation that all planned
   corrective actions are complete.

   Management Comments to Recommendation #5
   DHS concurred with recommendation 5. During FY 2011, the ISO will
   begin providing security training to component ISSOs, System
   Administrators, System Owners, and Authorizing Officials. Each
   course will include DHS specific knowledge, policies and procedures
   for performing significant security responsibilities.

   OIG Analysis
   We agree that the steps that DHS is taking, and plans to take, begin to
   satisfy this recommendation. This recommendation will remain open
   until DHS provides supporting documentation that all planned
   corrective actions are complete.

   Management Comments to Recommendation #6
   DHS concurred with recommendation 6. DHS continues to make
   progress in implementing the FDCC requirements outlined in OMB
   M-07-11 and M-07-18. The Desktop Working Group tracks and
   monitors component progress on FDCC implementation. Pilot testing
   has been completed for all components; FLETC, Headquarters, and
   OIG have reported full deployment; CBP, CIS, FEMA, ICE, USCG,



Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                              Page 22

   and USSS are on track to complete full deployment by the end of
   FY 2011.

   OIG Analysis
   We agree that the steps that DHS is taking, and plans to take, begin to
   satisfy this recommendation. This recommendation will remain open
   until DHS provides supporting documentation that all planned
   corrective actions are complete.

   Management Comments to Recommendation #7
   DHS concurred with recommendation 7. The CIO has identified
   continuous monitoring as a HPI 11-14 in FY 2011. A department-wide
   gap analysis is being conducted to evaluate the tools and capabilities
   currently in place within the Department to address these concerns.
   HPI 11-14 is reviewing FY 2010 OMB guidance issues and NIST
   continuous monitoring efforts to better define the department’s
   implementation of continuous monitoring.

   OIG Analysis
   We agree that the steps that DHS is taking, and plans to take, begin to
   satisfy this recommendation. This recommendation will remain open
   until DHS provides supporting documentation to support that all
   planned corrective actions are complete.




Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                              Page 23
 

Appendix A
Purpose, Scope, and Methodology


                        The objective of this review was to determine whether DHS has developed
                        adequate and effective information security policies, procedures, and
                        practices, in compliance with FISMA. In addition, we evaluated DHS’
                        progress in developing, managing, and implementing its information security
                        program.

                        Our independent evaluation focused on DHS' information security program,
                        the requirements outlined in FISMA and using OMB's reporting instructions
                        for FY 2010.13 We conducted our work at the departmental level and at DHS'
                        organizational components CBP, CIS, FEMA, FLETC, ICE, I&A, MGMT,
                        NPPD, OIG, OPS, S&T, TSA, USCG, and USSS.

                        In addition to our independent evaluation, we conducted reviews of DHS’
                        information systems and security program-related areas throughout FY 2010.
                        This report includes the results of a limited number of systems evaluated
                        during the year and our on-going financial statement review, including the
                        Active Directory, US-CERT, Cybersecurity, HSPD-12, and Personnel
                        Systems Security audits

                        As part of our evaluation of DHS' compliance with FISMA, we assessed DHS
                        and its components with the security requirements mandated by FISMA and
                        other federal information security policies, procedures, standards, and
                        guidelines. Specifically, we: (1) used last year's FISMA independent
                        evaluation as a baseline for this year's evaluation; (2) reviewed policies,
                        procedures, and practices that DHS has implemented at the program and
                        component levels; (3) reviewed DHS’ POA&M process to ensure that all
                        security weaknesses are identified, tracked, and addressed; (4) reviewed the
                        processes and status of DHS’ department-wide information security program,
                        including C&A, contingency planning, continuous monitoring, incident
                        response, identity management, inventory, privacy, remote access, security
                        training, system reviews, and remote access; and, (5) developed our
                        independent evaluation of DHS’ information security program.

                        We reviewed the quality of C&A packages for a sample of 25 systems at nine
                        components and offices: CIS, FEMA, ICE, MGMT, NPPD, S&T, TSA,
                        USCG, and USSS, to ensure that all of the required documents were
                        completed prior to system accreditation. In addition, we evaluated the
                        implementation of DHS’ baseline configurations and compliance with
                        selected NIST SP 800-53 controls for 47 systems at CBP, CIS, FEMA, ICE,

13
  OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, issued on April 21, 2010.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 24

Appendix A
Purpose, Scope, and Methodology


                   I&A, MGMT, NPPD, OPS, TSA, USCG, and USSS. We reviewed the FDCC
                   settings at four components, including MGMT, OIG, OPS, and TSA.

                   We conducted our evaluation between April and August 2010 under the
                   authority of the Inspector General Act of 1978, as amended, and according to
                   the Quality Standards for Inspections issued by the President’s Council on
                   Integrity and Efficiency. Major OIG contributors to the evaluation are
                   identified in Appendix N.

                   The principal OIG point of contact for the evaluation is Frank Deffer,
                   Assistant Inspector General, IT Audits at (202) 254-4100.




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                 Page 25

Appendix B
Management Response to Draft Report




                                                                    ~Homeland
                                                                    •           Security

             MEMORANDUM FOR:              Frank DefTer
                                          Assistant Inspector General, IT Audits

             FROM:                        Robert   West~~.,)
                                          Chief lnfonnation Security Officer

             SUBJECT:                     Response 10 draft Fisca.I Year 2010 FISMA Report

             This memorandum respoDds to the Office of Inspector General draft report titled,
             EWliuotion 0/ DHS' InformtJljon &r:urity ProgramftH Fircol Y~ar 2010, dated
             September 2010.

             The Office orChier lnfonnation Securily Offte:e:r concurs with all seven
             recommendations within the report. TIle following actions are already underway to
             address these recommendations.

             Herommend.tioD Nl: Revise and strengthen the department's processes to ensure that
             components cannot procure a new system without the department's approval and all new
             systems will be captW'ed in DHS' system inventory.

             DUS elsa cone.un: DHS continues to strengthen and revise processes to ensure
             procurement of new systems arc approved by the Department and captwed within DHS'
             system inventory.

             Recommendation #2: Improve the ISO' review process to ensure that POA&Ms.
             including those for classified systems. are complete and current

             DUS elsa roocurs: The Infonnation Security Offlce (ISO) procc:s:s has been improved
             to ensure that all POA&Ms, including those POA&Ms for classified systems. are
             complete and current. Updates 10 lhe Plan ofAction and Milestones (POA&M) Process
             Guitk, DHS 4300A Sensitive Systems Handbook, for FY WI I to incorporate process
             changes based on lessons learned during FY 2010 POA&M monitoring, recently issued
             NIST 800-37, Revision I, and the FY 2011 Performance Plan once fmalized.




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                    Page 26

Appendix B
Management Response to Draft Report




              Rt'('ommcndatioll #3: Ensure that all applicable controls arc includcd in thc sccurity
              documentation when certifying and accrediting ~ystem~. Sy~tems accredited wilh
              outdated d()Cument~ or without all applicahle controb ~hould not he accepted.

              nHS CISO concurs: ·11J,:: Certification and Accreditation (C&A) document templates arc
              generated with the applieahle eontrob by the I)HS C&A Tool at the time the C&A is
              initiated. Additionally, the required C&A documents arc reviewed by the ISO Documem
              Review team to ensure that all applicable (.'{)ntrols arc ade(luatc1y addrc~sed and
              documellt~ which arc outdated or lack all applicahle controls arc not acceptctl


              Rerommendafioll #4: Improve the process to ensure that OBS haselinc configuration
              requiremcnts arc implemcnted and maintaincd on all systems. TIle process should
              include testing and the u~e of <lutomated toob and ~ecurity templates.

              DBS elso ('.onelll'S: The DHS CIO has identified continuous monitoring as a High
              Priority Initiative (HPI) I 1-14 in fi~cal ycar (FY) 20 II. The automated compliance
              reporting of baseline configuration requiremems will be included as part of the
              continuous monitoring HPJ. A department-wide gap analysis is being conducted to
              evaluate the toob and capahilitie~ cUlTCntly in place within I)HS to address these
              concelllS..

              Reeomml"ndafioll #5: Establish appropriatc training that is needed for all individuals
              with significant security responsibilities to perform their security functions.

              DBS CISO eoncul'S: During FY!I, the DHS Infomlation Security Ollice will begin
              provide security training to Component Infonnation System Security Omcers (ISSO),
              Sy~tem Admini~trator.; (SA), System Owner.; (SO), and Authorizing Oniciab (AO)_
              Each course will include DHS specific knowledge, policies and procedures lor
              perfomling significant security rc~pon~ibilities_

              RC('OIllIllClltlutioli #6: Evaluate and revise the depm1melll's current FDCC
              implementation ~trategy to en~urc the requirements outlined in OM B M-07-11 and
              h·f-07- t 8 arc implemented expeditiously_

              DBS elso COIlCUI'S: DHS continues to make progress in implementing the FOCC
              requirements outlined in O?<.·lB 1\1-07-11 and ~·1-07-18. 111e Desktop Working Group
              (OWG) trach and tmmilof!; ComponenL~ pmgres~ on FOCC implementation. Pilot
              testing has been completed lor all components; FLETC, HQ and OIG have reported Ihll
              deployment; CBP, FEr..·IA, ICE, USCIS, USCG, and USSS are 011 track to complete Ihll
              deployment hy the end of FY 11_

              Rt'('OIllIllClldutioli #7: Develop a strategy to implement an automated and real-time
              continuous monitoring proces~ for tracking the department's invcntory, including
              hardware devices, eJo..1emai connections, and software installed on ils systems that
              complies with applicable OMB and NIST guidance. In addition, the cOlllinuous




                    Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                    Page 27

Appendix B
Management Response to Draft Report




             monitoring program should include pertonuing periodic testing to evaluate the security
             posture at all components.

             nilS CISO concurs: The DI-IS CIO has idcntificd continuous monitoring as a High
             Priority Initiativo: (HI'I) 11-14 in FY20 II. A do:partrnent-wido: gap analysis is being
             conducted to evaluate the tools and capabilities currently in place within the Depanment
             to addrcss thcse conccrns_ HPI 11-14 is rcviewing FY201 0 O~"" B guidance issucs and
             NIST continuous monitoring ellons to better deline the Depanment's implementation of
             continuous monitoring.

             Should you have any questions, please callmc at (202) 357-6110, or your staff may
             contact Emcry Csulak, Director of Compliancc :md Technology at (202) 357-6113_

             cc: Chicflnfonnation Officer
                 Component elQs
                 Component elSO;




                     Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                     Page 28

Appendix C
System Inventory


                                                                     Question 1: System Inventory
      1. Identify the number of agency and contractors systems by component and FIPS 199 impact level (low, moderate, high). Please also identify the
      number of systems that are used by your agency but owned by another federal agency (i.e., ePayroll, etc.) by component and FIPS 199 impact level.
                                 Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
      2. For the Total Number of Systems identified by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and
      percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
      contingency plan tested in accordance with policy.
                                                   Question 1                                                                   Question 2
                                            a.                      b.                   c.                    a.                    b.                   c.
                                      Agency Systems            Contractor        Total Number of          Number of             Number of           Number of
                                                                 Systems             Systems            systems certified       systems for         systems for
                                                                                   (Agency and           and accredited        which security           which
                                                                                    Contractor                                 controls have        contingency
                                                                                     systems)                                 been tested and     plans have been
                                                                                   (Column A +                                reviewed in the         tested in
                                                                                    Column B)                                    past year        accordance with
                                                                                                                                                        policy

                     FIPS 199
                                                                                             Total
      Bureau          System                   Number                 Number      Total                  Total    Percent      Total   Percent     Total   Percent
                                    Number                Number                            Number
      Name            Impact                  Reviewed               Reviewed    Number                 Number    of Total    Number   of Total   Number   of Total
                                                                                           Reviewed
                       Level
         CBP           High            21         5          1           0          22          5          5       100%         5       100%        5       100%
                     Moderate          42         2          1           0          43          2          2       100%         1        50%        2       100%
                        Low             1         0          2           0          3           0          0        0%          0         0%        0        0%
                        Not
                                        0         0          0           0          0           0          0         0%         0        0%         0        0%
                    Categorized
                     Sub-total         64         7          4           0          68          7          7       100%         6       86%         7       100%
          CIS          High             1         0          3           0          4           0          0        0%          0        0%         0        0%
                      Moderate         63         4          28          3          91          7          6        86%         6       86%         7       100%
                        Low             1         0          3           1          4           1          0         0%         0        0%         0        0%
                        Not
                                        3         0          2           0          5           0          0         0%         0        0%         0        0%
                    Categorized
                     Sub-total         68         4          36          4         104          8          6        75%         6       75%         7       88%




                                                   Evaluation of DHS’ Information Security Program for Fiscal Year 2010
                                                                                                                          




                                                                                Page 29

Appendix C
System Inventory


        DNDO          High       0    0         0           0          0           0          0         0%       0   0%     0   0%
                    Moderate     1    0         0           0          1           0          0         0%       0   0%     0   0%
                      Low        0    0         0           0          0           0          0         0%       0   0%     0   0%
                       Not
                                 0    0         0           0          0           0          0         0%       0   0%     0   0%
                   Categorized
                    Sub-Total    1    0         0           0          1           0          0        0%        0     0%   0    0%
        FEMA          High       14   4          4          1          18          5          5       100%       3    60%   3   60%
                    Moderate     23   3         13          2          36          5          5       100%       5   100%   3   60%
                      Low         4   0          1          0          5           0          0        0%        0     0%   0    0%
                       Not
                                 31   1         0           0          31          1          0         0%       0   0%     0   0%
                   Categorized
                    Sub-total    72   8         18          3          90         11          10      91%        8   73%    6   55%
        FLETC         High        0   0          0          0           0          0           0       0%        0    0%    0    0%
                    Moderate     11   2          1          0          12          2           2      100%       2   100%   2   100%
                      Low         0   0          0          0           0          0           0       0%        0    0%    0    0%
                       Not
                                 0    0         0           0          0           0          0         0%       0   0%     0   0%
                   Categorized
                    Sub-total    11   2         1           0          12          2          2       100%       2   100%   2   100%
         I&A          High        1   1         1           0          2           1          1       100%       1   100%   0    0%
                    Moderate     0    0         0           0          0           0          0        0%        0    0%    0    0%
                      Low         0   0         0           0          0           0          0        0%        0    0%    0    0%
                       Not
                                 0    0         0           0          0           0          0         0%       0   0%     0   0%
                   Categorized
                    Sub-total    1    1         1           0          2           1          1       100%       1   100%   0    0%
         ICE          High       11   2          9          2          20          4          4       100%       2    50%   3    75%
                    Moderate     33   1         29          2          62          3          3       100%       3   100%   3   100%
                      Low         4   0          3          0          7           0          0        0%        0     0%   0     0%
                       Not
                                 0    0         0           0          0           0          0         0%       0   0%     0   0%
                   Categorized
                    Sub-total    48   3         41          4          89          7          7       100%       5   71%    6   86%
         ISO          High        2   0          1          0          3           0          0        0%        0    0%    0    0%
                    Moderate      0   0          0          0          0           0          0        0%        0    0%    0    0%
                      Low         0   0          0          0          0           0          0        0%        0    0%    0    0%




                                      Evaluation of DHS’ Information Security Program for Fiscal Year 2010
                                                                                                             




                                                                   Page 30

Appendix C
System Inventory


                       Not
                                 0    0         0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    2    0         1           0          3           0          0        0%        0      0%   0      0%
       ITSO RMC       High       7    1         6           4          13          5          5       100%       5    100%   5    100%
                    Moderate     4    4         5           3          9           7          7       100%       6     86%   5     71%
                      Low        0    0         2           1          2           1          1       100%       1    100%   1    100%
                       Not
                                 0    0         4           0          4           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    11   5         17          8          28         13          13      100%       12    92%   11    85%
        NPPD          High       7    2         5           0          12          2          2       100%       2    100%   2    100%
                    Moderate     4    0         11          5          15          5          5       100%       4     80%   4     80%
                      Low        2    1          2          0          4           1          1       100%       1    100%   1    100%
                       Not
                                 0    0         0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    13   3         18          5          31          8          8       100%       7     88%   7    88%
         OIG          High        3   1         0           0          3           1          1       100%       1    100%   0     0%
                    Moderate     0    0         0           0          0           0          0        0%        0      0%   0     0%
                      Low         0   0         0           0          0           0          0        0%        0      0%   0     0%
                       Not
                                 0    0         0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    3    1         0           0          3           1          1       100%       1    100%   0     0%
         OPS          High       2    0         0           0          2           0          0        0%        0     0%    0     0%
                    Moderate     2    1         0           0          2           1          1       100%       1    100%   1    100%
                      Low        0    0         0           0          0           0          0        0%        0     0%    0     0%
                       Not
                                 0    0         0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    4    1         0           0           4          1          1       100%       1    100%   1    100%
         S&T          High       3    0          0          0           3          0          0        0%        0     0%    0     0%
                    Moderate     5    1         14          0          19          1          1       100%       1    100%   1    100%
                      Low        1    0          2          0          3           0          0        0%        0     0%    0     0%
                       Not
                                 0    0         0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    9    1         16          0          25          1          1       100%       1    100%   1    100%




                                      Evaluation of DHS’ Information Security Program for Fiscal Year 2010
                                                                                                             




                                                                   Page 31

Appendix C
System Inventory


         TSA          High       22    2          4           0          26          2          2       100%       2    100%   2    100%
                    Moderate     28    4          18          0          46          4          4       100%       3     75%   4    100%
                      Low         4    0           2          0          6           0          0        0%        0      0%   0     0%
                       Not
                                  0    0          0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    54    6          24          0          78          6          6       100%       5    83%    6    100%
        USCG          High       37    2           5          2          42          4          4       100%       2    50%    2     50%
                    Moderate     53    4          18          3          71          7          5        71%       6    86%    4     57%
                      Low        11    1          5           1          16          2          2       100%       1    50%    2    100%
                       Not
                                  0    0          0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    101   7          28          6         129         13          11       85%       9     69%   8     62%
        USSS          High        3    1           0          0          3           1           0        0%       0      0%   1    100%
                    Moderate      6    0          0           0          6           0          0         0%       0      0%   0      0%
                      Low         1    1           0          0          1           1          1       100%       1    100%   1    100%
                       Not
                                  0    0          0           0          0           0          0         0%       0    0%     0    0%
                   Categorized
                    Sub-total    10    2          0           0          10          2          1        50%       1    50%    2    100%
        Agency
                      High       134   21         39          9         173         30          29       97%       23   77%    23   77%
        Totals
                    Moderate     275   26        138         18         413         44          41       93%       38   86%    36   82%
                      Low         29    3         22          3          51          6          5        83%       4    67%    5    83%
                       Not
                                 34    1          6           0          40          1          0         0%       0    0%     0    0%
                   Categorized
                      Total      472   51        205         30         677         81          75       93%       65   80%    64   79%




                                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010
                                                                                                               




                                                                     Page 32

  Appendix D
  Status of Certification and Accreditation Program


                      Section 2: Status of Certification and Accreditation Program
                                                                                                          Response:

1. Choose one:
 A. The Agency has established and is maintaining a certification and accreditation program that is
    generally consistent with NIST’s and OMB’s FISMA requirements. Although improvement
    opportunities may have been identified by the OIG, the program includes the following
    attributes:
    1. Documented policies and procedures describing the roles and responsibilities of participants
        in the certification and accreditation process.
    2. Establishment of accreditation boundaries for agency information systems.
    3. Categorizes information systems.
    4. Applies applicable minimum baseline security controls,
    5. Assesses risks and tailors security control baseline for each system.                                 9
    6. Assessment of the management, operational, and technical security controls in the
        information system.
    7. Risks to Agency operations, assets, or individuals analyzed and documented in the system
        security plan, risk assessment, or an equivalent document.
    8. The accreditation official is provided (i) the security assessment report from the certification
        agent providing the results of the independent assessment of the security controls and
        recommendations for corrective actions; (ii) the plan of action and milestones from the
        information system owner indicating actions taken or planned to correct deficiencies in the
        controls and to reduce or eliminate vulnerabilities in the information system; and (iii) the
        updated system security plan with the latest copy of the risk assessment.
 B. The Agency has established and is maintaining a certification and accreditation program.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency has not established a certification and accreditation program.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 33

 Appendix D
 Status of Certification and Accreditation Program

2. If B. chosen above, indicate areas that need significant improvement:
      a. Certification and accreditation policy is not fully developed.
      b. Certification and accreditation procedures are not fully developed or consistently
          implemented.
      c. Information systems are not properly categorized (FIPS 199/SP 800-60).
      d. Accreditation boundaries for agency information systems are not adequately defined.
      e. Minimum baseline security controls are not adequately applied to information systems
          (FIPS 200/SP 800-53).
      f. Risk assessments are not adequately conducted (SP 800-30).
      g. Security control baselines are not adequately tailored to individual information systems (SP
          800-30).
      h. Security plans do not adequately identify security requirements (SP 800-18).
      i. Inadequate process to assess security control effectiveness (SP800-53A).
      j. Inadequate process to determine risk to agency operations, agency assets, or individuals, or
          to authorize information systems to operate (SP 800-37).
      k. Inadequate process to continuously track changes to information systems that may
          necessitate reassessment of control effectiveness (SP 800-37).
      l. Other
                     •   DHS bases its C&A process on NIST SP 800-37, Guide for Applying the Risk Management
                         Framework to Federal Information Systems: A Security Life Cycle Approach and DHS
                         Sensitive Systems Policy Directive 4300A for its unclassified systems. Components are
                         required to follow Department of Defense Information Assurance Certification and
3. Comments:             Accreditation Process when certifying and accrediting its classified systems.
                     •   Based on our review of C&A packages for 25 systems, we determined some artifacts required
                         to certify and accredit a system were either missing, incomplete, or outdated. In addition,
                         some of the self-assessments were not being properly completed by the components.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 34

 Appendix E
 Status of Configuration Management


                            Section 3: Status of Configuration Management
                                                                                                  Response:

4. Choose one:
 A. The Agency has established and is maintaining a security configuration management program
    that is generally consistent with NIST's and OMB's FISMA requirements. Although
    improvement opportunities may have been identified by the OIG, the program includes the
    following attributes:
    1. Documented policies and procedures for configuration management.                              9
    2. Standard baseline configurations.
    3. Scanning for compliance and vulnerabilities with baseline configurations.
    4. FDCC baseline settings fully implemented and/or any deviations from FDCC baseline
         settings fully documented.
    5. Documented proposed or actual changes to the configuration settings.
    6. Process for the timely and secure installation of software patches.
 B. The Agency has established and is maintaining a security configuration management program.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency has not established a security configuration management program.


5. If B. chosen above, indicate areas that need significant improvement:
     a. Configuration management policy is not fully developed.
     b. Configuration management procedures are not fully developed or consistently
         implemented.
     c. Software inventory is not complete (NIST 800-53: CM-8).
     d. Standard baseline configurations are not identified for all software components (NIST
         800-53: CM-8).
     e. Hardware inventory is not complete (NIST 800-53: CM-8).
     f. Standard baseline configurations are not identified for all hardware components (NIST
         800-53: CM-2).
     g. Standard baseline configurations are not fully implemented (NIST 800-53: CM-
     h. FDCC is not fully implemented (OMB) and/or all deviations are not fully documented.
     i. Software scanning capabilities are not fully implemented (NIST 800-53: RA-5, SI-2).
     j. Configuration related vulnerabilities have not been remediated in a timely manner (NIST
         800-53: CM-4, CM-6, RA-5, SI-2).
     k. Patch management process is not fully developed (NIST 800-53: CM-3, SI-2).
     l. Other




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 35

 Appendix E
 Status of Configuration Management


                                                                                                    - Cisco IOS

                                                                                                    - Oracle

                                                                                                    - Microsoft
                                                                                                    Structured
                                                                                                    Query
                                                                                                    Language
                                                                                                    Server
6. Identify baselines reviewed:
                                                                                                    - Security
    a. Software Name                                                                                Enhanced
    b. Software Version                                                                             Linux
                                                                                                    /Linux

                                                                                                    - Solaris

                                                                                                    - Windows
                                                                                                    Server

                                                                                                    - Windows
                                                                                                    XP



                     •   Based on our review of 44 systems at DHS components, we found that components had not
                         fully implemented DHS baseline configuration settings.
                     •   While MGMT, OIG, OPS, and TSA reported that FDCC setting had been fully implemented,
7. Comments:
                         our testing revealed that not all FDCC required settings had been implemented.
                     •   Based on our in-depth system testing, we determined the OneNet access routers are not
                         configured according to DHS policy.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 36

 Appendix F
 Status of Incident Response and Reporting Program



                     Section 4: Status of Incident Response & Reporting Program
                                                                                                        Response:
8. Choose one:
 A. The Agency has established and is maintaining an incident response and reporting program that
    is generally consistent with NIST's and OMB's FISMA requirements. Although improvement
    opportunities may have been identified by the OIG, the program includes the following
    attributes:                                                                                            9
    1. Documented policies and procedures for responding and reporting to incidents.
    2. Comprehensive analysis, validation and documentation of incidents.
    3. When applicable, reports to US-CERT within established timeframes.
    4. When applicable, reports to law enforcement within established timeframes.
    5. Responds to and resolves incidents in a timely manner to minimize further damage.
 B. The Agency has established and is maintaining an incident response and reporting program.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency has not established an incident response and reporting program.

9. If B. chosen above, indicate areas that need significant improvement:
     a. Incident response and reporting policy is not fully developed.
     b. Incident response and reporting procedures are not fully developed, sufficiently detailed, or
         consistently implemented.
     c. Incidents were not identified in a timely manner (NIST 800-53, 800-61, and OMB M-07-16,
         M-06-19).
     d. Incidents were not reported to US-CERT as required (NIST 800-53, 800-61, and OMB
         M-07-16, M-06-19).
     e. Incidents were not reported to law enforcement as required.
     f. Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and OMB M-07-16,
         M-06-19).
     g. Incidents were not resolved to minimize further damage (NIST 800-53, 800-61, and OMB
         M-07-16, M-06-19).
     h. There is insufficient incident monitoring and detection coverage (NIST 800-53, 800-61, and
         OMB M-07-16, M-06-19).
     i. Other




10. Comments:




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 37

Appendix G
Status of Security Training Program


                             Section 5: Status of Security Training Program
                                                                                                  Response:
11. Choose one:
 A. The Agency has established and is maintaining a security training program that is generally
    consistent with NIST's and OMB's FISMA requirements. Although improvement
    opportunities may have been identified by the OIG, the program includes the following
    attributes:
    1. Documented policies and procedures for security awareness training.
    2. Documented policies and procedures for specialized training for users with significant
        information security responsibilities.
    3. Appropriate training content based on the organization and roles.
    4. Identification and tracking of all employees with login privileges that need security
        awareness training.
    5. Identification and tracking of employees without login privileges that require security
        awareness training.
    6. Identification and tracking of all employees with significant information security
        responsibilities that require specialized training.
 B. The Agency has established and is maintaining a security training program. However, the
    Agency needs to make significant improvements as noted below.                                    9

 C. The Agency has not established a security training program.




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                    Page 38

Appendix G
Status of Security Training Program


12. If B. chosen above, indicate areas that need significant improvement:
    a. Security awareness training policy is not fully developed.
    b. Security awareness training procedures are not fully developed, sufficiently detailed, or
         consistently implemented.
    c. Specialized security training policy is not fully developed.
    d. Specialized security training procedures are not fully developed or sufficiently detailed
         (SP 800-50, SP 800-53).
    e. Training material for security awareness training does not contain appropriate content
         for the Agency (SP 800-50, SP 800-53).
    f. Identification and tracking of employees with login privileges that require security
         awareness training is not adequate (SP 800-50, SP 800-53).
    g. Identification and tracking of employees without login privileges that require security            f, g, i
         awareness training is not adequate (SP 800-50, SP 800-53).
    h. Identification and tracking of employees with significant information security
         responsibilities is not adequate (SP 800-50, SP 800-53).
    i. Training content for individuals with significant information security responsibilities is
         not adequate (SP 800-53, SP 800-16).
    j. Less than 90% of employees with login privileges attended security awareness training in
         the past year.
    k. Less than 90% of employees, contractors, and other users with significant security
         responsibilities attended specialized security awareness training in the past year.
    l. Other



                     Although DHS has established and is maintaining a security training program that is generally
                     consistent with NIST's and OMB's FISMA requirements, we identified the following deficiencies:

13. Comments:            •   DHS has not yet implemented specific training content for employees with significant
                             security responsibilities.
                         •   DHS does not currently have the capability to identify and track all employees with or
                             without login privileges who require security awareness training.




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                     Page 39

 Appendix H
 Status of Plans of Actions and Milestones (POA&M) Program


               Section 6: Status of Plans of Actions & Milestones (POA&M) Program
                                                                                                     Response:
14. Choose one:
 A. The Agency has established and is maintaining a POA&M program that is generally consistent
    with NIST's and OMB's FISMA requirements and tracks and monitors known information
    security weaknesses. Although improvement opportunities may have been identified by the OIG,
    the program includes the following attributes:
    1. Documented policies and procedures for managing all known IT security weaknesses.                9
    2. Tracks, prioritizes and remediates weaknesses.
    3. Ensures remediation plans are effective for correcting weaknesses.
    4. Establishes and adheres to reasonable remediation dates.
    5. Ensures adequate resources are provided for correcting weaknesses.
    6. Program officials and contractors report progress on remediation to CIO on a regular basis,
        at least quarterly, and the CIO centrally tracks, maintains, and independently
        reviews/validates the POAM activities at least quarterly.
 B. The Agency has established and is maintaining a POA&M program that tracks and remediates
    known information security weaknesses. However, the Agency needs to make significant
    improvements as noted below.
 C. The Agency has not established a POA&M program.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 40

 Appendix H
 Status of Plans of Actions and Milestones (POA&M) Program


15. If B. chosen above, indicated areas that need significant improvement:
    a. POA&M Policy is not fully developed.
    b. POA&M procedures are not fully developed, sufficiently detailed, or consistently
         implemented.
    c. POA&Ms do not include all known security weaknesses (OMB M-04-25).
    d. Remediation actions do not sufficiently address weaknesses (NIST SP 800-53, Rev. 3, Sect.
         3.4 Monitoring Security Controls).
    e. Initial date of security weaknesses are not tracked (OMB M-04-25).
    f. Security weaknesses are not appropriately prioritized (OMB M-04-25).
    g. Estimated remediation dates are not reasonable (OMB M-04-25).
    h. Initial target remediation dates are frequently missed (OMB M-04-25).
    i. POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3, Control CA-5, and
         OMB M-04-25).
    j. Costs associated with remediating weaknesses are not identified (NIST SP 800-53, Rev. 3,
         Control PM-3 & OMB M-04-25).
    k. Agency CIO does not track and review POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5,
         and OMB M-04-25).
    l. Other


                      •     DHS requires components to create and manage POA&Ms for all known IT security
                            weaknesses.
                      •     As of June 30, 2010, DHS has 4,122 open POA&Ms. However, POA&Ms have not been
16. Comments:               created for all weaknesses identified during the C&A process. Furthermore, components
                            are not consistently maintaining and tracking their classified POA&Ms.
                      •     DHS creates quarterly POA&M progress reports, tracking weakness remediation and
                            maintenance.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                        Page 41

 Appendix I
 Status of Remote Access Program


                              Section 7: Status of Remote Access Program
                                                                                                    Response:
17. Choose one:
 A. The Agency has established and is maintaining a remote access program that is generally
    consistent with NIST's and OMB's FISMA requirements. Although improvement opportunities
    may have been identified by the OIG, the program includes the following attributes:
    1. Documented policies and procedures for authorizing, monitoring, and controlling all
       methods of remote access.
    2. Protects against unauthorized connections or subversion of authorized connections.
    3. Users are uniquely identified and authenticated for all access.                                 9
    4. If applicable, multi-factor authentication is required for remote access.
    5. Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote
       electronic authentication, including strength mechanisms.
    6. Requires encrypting sensitive files transmitted across public networks or stored on mobile
       devices and removable media such as CDs and flash drives.
    7. Remote access sessions are timed-out after a maximum of 30 minutes of inactivity after
       which re-authentication is required.
 B. The Agency has established and is maintaining a remote access program. However, the Agency
    needs to make significant improvements as noted below.
 C. The Agency has not established a program for providing secure remote access.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 42

 Appendix I
 Status of Remote Access Program


18. If B. chosen above, indicate areas that need significant improvement:
    a. Remote access policy is not fully developed.
    b. Remote access procedures are not fully developed, sufficiently detailed, or consistently
         implemented.
    c. Telecommuting policy is not fully developed (NIST 800-46, Section 5.1).
    d. Telecommuting procedures are not fully developed or sufficiently detailed (NIST 800-46,
         Section 5.4).
    e. Agency cannot identify all users who require remote access (NIST 800-46, Section 4.2,
         Section 5.1).
    f. Multi-factor authentication is not properly deployed (NIST 800-46, Section 2.2, Section 3.3).
    g. Agency has not identified all remote devices (NIST 800-46, Section 2.1).
    h. Agency has not determined all remote devices and/or end user computers have been
         properly secured (NIST 800-46, Section 3.1 and 4.2).
    i. Agency does not adequately monitor remote devices when connected to the agency's
         networks remotely (NIST 800-46, Section 3.2).
    j. Lost or stolen devices are not disabled and appropriately reported (NIST 800-46, Section
         4.3, US-CERT Incident Reporting Guidelines).
    k. Remote access rules of behavior are not adequate (NIST 800-53, PL-4).
    l. Remote access user agreements are not adequate (NIST 800-46, Section 5.1, NIST 800-53,
         PS-6).
    m. Other


                      •     According to DHS policy, components are responsible for managing all remote access and
                            dial in connections to their systems through the use of two-factor authentication and audit
                            logging capabilities to protect sensitive information throughout transmission.
19. Comments:
                      •     Seven out of eight components are currently utilizing remote access programs.
                      •     One component out of the seven has not implemented a time-out function after a maximum
                            of 30 minutes of inactivity.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                        Page 43

 Appendix J
 Status of Account and Identity Management Program


                   Section 8: Status of Account and Identity Management Program
                                                                                                       Response:
20. Choose one:
 A. The Agency has established and is maintaining an account and identity management program
    that is generally consistent with NIST's and OMB's FISMA requirements and identifies users
    and network devices. Although improvement opportunities may have been identified by the
    OIG, the program includes the following attributes:
    1. Documented policies and procedures for account and identity management.
    2. Identifies all users, including federal employees, contractors, and others who access Agency       9
         systems.
    3. Identifies when special access requirements (e.g., multifactor authentication) are necessary.
    4. If multi-factor authentication is in use, it is linked to the Agency's PIV program.
    5. Ensures that the users are granted access based on needs and separation of duties
         principles.
    6. Identifies devices that are attached to the network and distinguishes these devices from
         users.
    7. Ensures that accounts are terminated or deactivated once access is no longer required.
 B. The Agency has established and is maintaining an account and identity management program
    that identifies users and network devices. However, the Agency needs to make significant
    improvements as noted below.
 C. The Agency has not established an account and identity management program.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 44

 Appendix J
 Status of Account and Identity Management Program


21. If B. chosen above, indicated areas that need significant improvement:
    a. Account management policy is not fully developed.
    b. Account management procedures are not fully developed, sufficiently detailed, or
         consistently implemented.
    c. Active Directory is not properly implemented (NIST 800-53, AC-2).
    d. Other Non-Microsoft account management software is not properly implemented (NIST
         800-53, AC-2).
    e. Agency cannot identify all User and Non-User Accounts (NIST 800-53, AC-2).
    f. Accounts are not properly issued to new users (NIST 800-53, AC-2).
    g. Accounts are not properly terminated when users no longer require access (NIST 800-53,
         AC-2).
    h. Agency does not use multi-factor authentication where required (NIST 800-53, IA-2).
    i. Agency has not adequately planned for implementation of PIV for logical access (HSPD 12,
         FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01).
    j. Privileges granted are excessive or result in capability to perform conflicting functions
         (NIST 800-53, AC-2, AC-6).
    k. Agency does not use dual accounts for administrators (NIST 800-53, AC-5, AC-6).
    l. Network devices are not properly authenticated (NIST 800-53, IA-3).
    m. Other




                      •       DHS does not utilize multi-factor authentication for access and identity management.
22. Comments:                 However, DHS is in the process of deploying HSPD-12 credentials to the entire
                              department with plans of using the PIV cards for multi-factor authentication.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                        Page 45

  Appendix K
  Status of Continuous Monitoring Program


                            Section 9: Status of Continuous Monitoring Program
                                                                                                              Response:
23. Choose one:
 A. The Agency has established an entity-wide continuous monitoring program that assesses the
    security state of information systems that is generally consistent with NIST's and OMB's
    FISMA requirements. Although improvement opportunities may have been identified by the
    OIG, the program includes the following attributes:
    1. Documented policies and procedures for continuous monitoring.
    2. Documented strategy and plans for continuous monitoring, such as vulnerability scanning,
        log monitoring, notification of unauthorized devices, sensitive new accounts, etc.
    3. Ongoing assessments of selected security controls (system-specific, hybrid, and common)
        that have been performed based on the approved continuous monitoring plans.
    4. Provides system authorizing officials and other key system officials with security status
        reports covering updates to security plans and security assessment reports, as well as
        POA&M additions.
 B. The Agency has established an entity-wide continuous monitoring program that assesses the
    security state of information systems. However, the Agency needs to make significant                           9
    improvements as noted below.
 C. The Agency has not established a continuous monitoring program.

24. If B. chosen above, indicate areas that need significant improvement:
    a. Continuous monitoring policy is not fully developed.
    b. Continuous monitoring procedures are not fully developed, sufficiently detailed, or
         consistently implemented.
    c. Strategy or plan has not been fully developed for entity-wide continuous monitoring (NIST
         800-37).
    d. Ongoing assessments of selected security controls (system-specific, hybrid, and common)                   c, d, e
         have not been performed (NIST 800-53, NIST 800-53A).
    e. The following were not provided to the system authorizing official or other key system
         officials: security status reports covering continuous monitoring results, updates to security
         plans, security assessment reports, and POA&Ms (NIST 800-53, NIST 800-53A).
    f. Other

                   DHS has established an entity-wide continuous monitoring program that assesses the security state
                   of information systems that is generally consistent with NIST's and OMB's FISMA requirements.
                   However, we identified the following deficiencies:

                       •     DHS has not provided specific strategy documents, plans, or tools that should be followed
                             for all continuous monitoring functions, such as vulnerability scanning, log monitoring, or
                             notification of unauthorized devices. However, components are performing continuous
25. Comments:
                             monitoring functions, such as vulnerability scanning and log monitoring.
                       •     Based on our review of 25 systems, we determined that 14 did not have all required NIST
                             SP 800-53 controls tested and included in a POA&M.
                       •     All DHS components have not provided authorizing officials and other key officials with
                             up-to-date security status reports with updates to security documentation. For example,
                             during our review of 25 system security plans, we identified 3 instances where
                             documentation was out of date.




                           Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                         Page 46

 Appendix L
 Status of Contingency Planning Program


                          Section 10: Status of Contingency Planning Program
                                                                                                      Response:
26. Choose one:
  A. The Agency established and is maintaining an entity-wide business continuity/disaster recovery
     program that is generally consistent with NIST's and OMB's FISMA requirements. Although
     improvement opportunities may have been identified by the OIG, the program includes the
     following attributes:
     1. Documented business continuity and disaster recovery policy providing the authority and
          guidance necessary to reduce the impact of a disruptive event or disaster.
     2. The agency has performed an overall Business Impact Assessment.
     3. Development and documentation of division, component, and IT infrastructure recovery             9
          strategies, plans and procedures.
     4. Testing of system specific contingency plans.
     5. The documented business continuity and disaster recovery plans are ready for
          implementation.
     6. Development of training, testing, and exercises (TT&E) approaches.
     7. Performance of regular ongoing testing or exercising of continuity/disaster recovery plans
          to determine effectiveness and to maintain current plans.
  B. The Agency has established and is maintaining an entity-wide business continuity/disaster
     recovery program. However, the Agency needs to make significant improvements as noted
     below.
  C. The Agency has not established a business continuity/disaster recovery program.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 47

 Appendix L
 Status of Contingency Planning Program



27. If B. chosen above, indicate areas that need significant improvement:

    a.  Contingency planning policy is not fully developed.
    b.  Contingency planning procedures are not fully developed, sufficiently detailed, or
        consistently implemented.
    c. An overall business impact assessment has not been performed (NIST SP 800-34).
    d. Development of organization, component, or infrastructure recovery strategies and plans
        has not been accomplished (NIST SP 800-34).
    e. A business continuity/disaster recovery plan has not been developed (FCD1, NIST SP
        800-34).
    f. A business continuity/disaster recovery plan has been developed, but not fully implemented
        (FCD1, NIST SP 800-34).
System contingency plans missing or incomplete (FCD1, NIST
SP 800-34, NIST SP 800-53).
    g. Critical systems contingency plans are not tested (FCD1, NIST SP 800-34, NIST SP 800-53).
    h. Training, testing, and exercises approaches have not been developed (FCD1, NIST SP
        800-34, NIST 800-53).
    i. Training, testing, and exercises approaches have been developed, but are not fully
        implemented (FCD1, NIST SP 800-34, NIST SP 800-53).
    j. Disaster recovery exercises were not successful revealed significant weaknesses in the
        contingency planning (NIST SP 800-34).
    k. After-action plans did not address issues identified during disaster recovery exercises
        (FCD1, NIST SP 800-34).
    l. Critical systems do not have alternate processing sites (FCD1, NIST SP 800-34, NIST SP
        800-53).
    m. Alternate processing sites are subject to same risks as primary sites (FCD1, NIST SP 800-
        34, NIST SP 800-53).
    n. Backups of information are not performed in a timely manner (FCD1, NIST SP 800-34,
        NIST SP 800-53).
    o. Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST SP 800-53).
    p. Backups are not properly secured and protected (FCD1, NIST SP 800-34, NIST SP 800-53).
    q. Other




                     DHS has established and is maintaining an entity-wide business continuity/disaster recovery
                     program that is generally consistent with NIST's and OMB's FISMA requirements. However,
                     based on our review of 25 system certification and accreditation plans, we identified that
28. Comments:
                     contingency plans and/or testing reports for 14 systems are missing certain elements, such as the
                     identification of alternate processing facilities, restoration procedures, data sensitivity handling
                     procedures at the alternate site or off-site storage.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                       Page 48

 Appendix M
 Status of Agency Program to Oversee Contractor Systems



                Section 11: Status of Agency Program to Oversee Contractor Systems
                                                                                                      Response:
29. Choose one:
 A. The Agency has established and maintains a program to oversee systems operated on its behalf
    by contractors or other entities. Although improvement opportunities may have been identified
    by the OIG, the program includes the following attributes:
    1. Documented policies and procedures for information security oversight of systems operated
        on the Agency's behalf by contractors or other entities and that the Agency obtains
        sufficient assurance that security controls of systems operated by contractors or others on
        its behalf are effectively implemented and comply with federal and agency guidelines.
    2. A complete inventory of systems operated on the Agency's behalf by contractors or other           9
        entities.
    3. The inventory identifies interfaces between these systems and Agency-operated systems.
    4. The agency requires agreements (MOUs, Interconnect Service Agreements, contracts, etc.)
        for interfaces between these systems and those that is owns and operates.
    5. The inventory, including interfaces, is updated at least annually.
    6. Systems that are owned or operated by contractors or entities are subject to and generally
        meet NIST and OMB's FISMA requirements.
 B. The Agency has established and maintains a program to oversee systems operated on its behalf
    by contractors or other entities. However, the Agency needs to make significant improvements
    as noted below.
 C. The Agency does not have a program to oversee systems operated on its behalf by contractors or
    other entities.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                      Page 49

 Appendix M
 Status of Agency Program to Oversee Contractor Systems



30. If B. chosen above, indicated areas that need significant improvement:

    a. Policies to oversee systems operated on the Agency's behalf by contractors or other entities
       are not fully developed.
    b. Procedures to oversee systems operated on the Agency's behalf by contractors or other
       entities are not fully developed, sufficiently detailed, or consistently implemented.
    c. The inventory of systems owned or operated by contractors or other entities is not
       sufficiently complete.
    d. The inventory does not identify interfaces between contractor/entity-operated systems to
       Agency owned and operated systems.
    e. The inventory of contractor/entity operated systems, including interfaces, is not updated at
       least annually.
    f. Systems owned or operated by contractors and entities are not subject to NIST and OMB's
       FISMA requirements (e.g., certification and accreditation requirements).
    g. Systems owned or operated by contractor's and entities do not meet NIST and OMB's
       FISMA requirements (e.g., certifications and accreditation requirements).
    h. Interface agreements (e.g., MOUs) are not properly documented, authorized, or maintained.
    i. Other




                      •     DHS has established and maintains a program to oversee systems operated on its behalf by
31. Comments:
                            contractors or other entities.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                        Page 50

Appendix N
Major Contributors to this Report



                    Information Security Audit Division

                    Chiu-Tong Tsang, Director
                    Aaron Zappone, Program Analyst
                    Amanda Strickler, IT Specialist
                    Michael Kim, IT Auditor
                    David Bunning, IT Specialist
                    Megan Ryno, Program Analyst
                    Joseph Landas, Management/Program Assistant
                    Michael Bann, Management/Program Assistant
                    Joshua Wessling, Management/Program Assistant
                    Basil Badley, Management/Program Assistant


                    Advanced Technology Division

                    John Molesky, IT Specialist




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2010

                                               Page 51
Appendix O
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Chief Financial Officer
                      Chief Privacy Officer
                      Chief Human Capital Officer
                      Chief Information Security Officer
                      Director, GAO/OIG Liaison Office
                      Director, Compliance and Oversight Program, Office of CIO
                      Deputy Director, Compliance and Oversight Program, Office of CIO
                      Director, Privacy Compliance
                      Chief Information Officer Audit Liaison
                      Chief Information Security Officer Audit Liaison
                      Privacy Office Audit Liaison
                      Component CIOs
                      Component CISOs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2010 


                                                Page 52

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
